HHS/OIG-Audit--"Review of Subsidiary Administrative Costs Claimed Under Parts A and B of the Health Insurance Program for the Aged and Disabled by Blue Cross and Blue Shield of Michigan, (A-05-93-00057)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Subsidiary Administrative Costs Claimed Under Parts A and
B of the Health Insurance Program for the Aged and Disabled by Blue Cross and
Blue Shield of Michigan," (A-05-93-00057)
July 9, 1993
Complete Text of Report is available in PDF format
(5.38 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Blue Cross and Blue Shield of Michigan
(BCBSM) charged unallowable costs totaling $1.4 million to Medicare over a 7-year
period ending September 30, 1987. The unallowable charges consisted primarily
of profits related to BCBSM's three subsidiaries. We recommended a financial
adjustment for $1.4 million. Regional Health Care Financing Administration and
BCBSM officials concurred with the recommendation.